March 2009
Report No. AUD-09-005


Material Loss Review of The Columbian
Bank and Trust Company,
Topeka, Kansas




            AUDIT REPORT
                                                 Report No. AUD-09-005                                                                      March 2009

                                                 Material Loss Review of The Columbian Bank
                                                 and Trust Company, Topeka, Kansas
   Federal Deposit Insurance Corporation         Audit Results
Why We Did The Audit
                                                 Columbian failed primarily due to bank management’s pursuit of rapid asset growth concentrated in
                                                 high-risk CRE/ADC loans, without adequate loan underwriting and credit administration practices.
As required by section 38(k) of the Federal
                                                 Resulting losses due to asset quality deterioration and a downturn in the economy severely eroded
Deposit Insurance Act, the Office of             capital, and in turn, the availability of wholesale funding sources used by the bank to fund its growth.
Inspector General (OIG) conducted a              As a result, the bank was unable to satisfy liquidity requirements, leading to its failure. Specifically:
material loss review of the failure of The
Columbian Bank and Trust Company                 Management. Columbian’s BOD did not ensure that bank management identified, measured,
(Columbian), Topeka, Kansas. On                  monitored, and controlled the risk of the institution’s activities or implemented timely corrective actions
August 22, 2008, the State of Kansas, Office     in response to examiner recommendations. In particular, Columbian did not adequately address
of the State Bank Commissioner (OSBC),           recommendations included in FDIC and OSBC Reports of Examination related to enhancing liquidity
closed Columbian and named the FDIC as           and reducing risk exposure in identified problem assets. Further, the bank’s performance bonus program
receiver. On September 11, 2008, the FDIC        created a cultural climate that emphasized asset growth and income without regard to loan quality.
notified the OIG that Columbian’s total
assets at closing were $726 million, with a      Asset Quality. Columbian’s loan portfolio consisted of a high concentration in CRE and ADC loans,
material loss to the Deposit Insurance Fund      many of which were brokered and/or out-of-territory. The bank’s ADC loans as a percent of its loan
(DIF) estimated at $61.5 million. As of          portfolio was significantly above peer group averages from 2003 through 2008. Columbian did not
December 31, 2008, the estimated loss to         follow sound loan underwriting and credit administration practices, including those pertaining to:
the DIF increased to $232 million.               (1) loan file documentation, (2) credit monitoring, and (3) accounting for interest reserves. Also,
                                                 Columbian did not maintain a sufficient allowance for loan and lease losses (ALLL). As a result, asset
                                                 quality declined, and losses, once recognized, reduced earnings and capital.
The audit objectives were to (1) determine
the causes of the financial institution’s
                                                 Liquidity. Columbian became increasingly dependent on higher cost and more volatile sources of
failure and resulting material loss to the DIF   liquidity, such as brokered deposits, Internet certificates of deposits, and Federal Home Loan Bank
and (2) evaluate the FDIC’s supervision of       advances, to fund asset growth in excess of the growth in core deposits. Liquidity levels and funding
the institution, including implementation of     strategies were deficient, and bank management did not implement the necessary controls for liquidity
the Prompt Corrective Action (PCA)               management, including an adequate contingency liquidity plan, until the bank had deteriorated to an
provisions of section 38.                        overall unsatisfactory condition.

Background                                       Supervision: The FDIC and OSBC conducted regular examinations of Columbian from 1996 until its
                                                 closing in 2008. In 2005, OSBC reported weaknesses in Columbian’s credit administration practices
                                                 and noted the bank’s first use of brokered deposits as a wholesale funding source. In 2006, in addition to
Columbian, originally a national bank that       identifying some of the weaknesses reported in the 2005 examination, the FDIC reported concerns
became insured on October 2, 1978, was           regarding out-of-territory lending, rapid loan growth, and underfunding of the ALLL. As a result of the
headquartered in Topeka, Kansas. The             July 2007 examination, the OSBC, in consultation with the FDIC, downgraded Columbian’s composite
FDIC became the primary federal regulator        rating, and the FDIC expedited the 2008 examination. The FDIC did not issue a PCA Directive to
of Columbian in December 1996. At                Columbian because the bank had not become undercapitalized. In July 2008, the FDIC and OSBC
closing, the bank had seven branches in          jointly issued a Cease and Desist Order (C&D) in an attempt to stop Columbian from operating in an
Kansas and one in Missouri. Columbian            unsafe and unsound manner. Among the 19 provisions, the C&D called for improvements in the bank’s
was wholly owned by a two-bank holding           liquidity and funds management, use of brokered deposits, concentrations of credit, use of interest
company, which was wholly owned by an            reserves, maintenance of a sufficient ALLL, and loan policy.
individual serving as a Director and a Vice
President of Columbian.                          Although FDIC and OSBC examinations identified the weaknesses in management, asset quality, and
                                                 liquidity that ultimately led to Columbian’s failure, supervisory action was not taken commensurate with
Columbian’s loan portfolio largely consisted     the risks these weaknesses posed to the institution. Rather, Columbian’s apparent strong earnings and
of commercial real estate loans (CRE), with      lack of non-performing loans, which were attributable to such factors as an understated ALLL and the
a significant concentration in land              mismanagement of interest reserves, overshadowed supervisory concerns with Columbian’s weaknesses
                                                 until they became more pronounced based on changes in economic conditions. As a result, more timely
acquisition, development, and construction
                                                 supervisory action directed at Columbian’s high-risk lending and weak credit underwriting and
loans (ADC), many of which were brokered
                                                 administration practices should have been taken. In particular, the institution continued to pay
and/or out-of-territory. The federal financial   substantially increased dividends, accept brokered deposits, and originate CRE loans while the 2007
regulatory agencies have recognized the          examination report was being processed from July to November 2007.
increased risk that CRE and ADC loans
present to financial institutions and issued     The FDIC OIG plans to issue a series of summary reports on the material loss reviews it is conducting
guidance in December 2006 on a risk              and will make appropriate recommendations related to the failure of Columbian and other FDIC-
management framework that effectively            supervised banks at that time.
identifies, measures, and controls CRE
concentration risk. That framework should
include effective oversight by bank
                                                 Management Response
management, including the board of               The Division of Supervision and Consumer Protection (DSC) provided a written response to the draft
directors (BOD) and senior executives, and       report. DSC agreed with the OIG’s conclusions regarding the causes of Columbian’s failure and
sound loan underwriting, credit                  resulting material loss and the supervisory activities related to Columbian. DSC also agreed that
administration, and portfolio management         increased supervisory action, commensurate with the risks these weaknesses posed to the institution,
practices.                                       should have been implemented sooner.
 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                           Page


BACKGROUND                                                           2

RESULTS IN BRIEF                                                     4

MANAGEMENT                                                           5
  Failure of Columbian’s Management to Address Examiner Concerns     6
  Risk Management                                                    7
  Performance Bonus Program                                          8
  Regulatory Supervision Related to Management                       9

ASSET QUALITY                                                       10
  Examiner Concerns and Recommendations Regarding Asset Quality     11
  Concentration in CRE and ADC Loans                                12
    Interest Reserves                                               14
    Allowance for Loan and Lease Losses                             14
  Regulatory Supervision Related to Asset Quality                   16
    Concentrations of Credit                                        18

LIQUIDITY                                                           19
  Examiner Concerns and Recommendations Regarding Liquidity         20
    Lack of an Adequate CLP                                         22
    Brokered Deposit Restrictions                                   22
  Regulatory Supervision Related to Liquidity                       23

IMPLEMENTATION OF PCA                                               24


CORPORATION COMMENTS                                                25


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                             26
  2. GLOSSARY OF TERMS                                              29
  3. CORPORATION COMMENTS                                           30
  4. ACRONYMS IN THE REPORT                                         33


TABLES
  1. Financial Condition of Columbian                                4
  2. Examples of Examiner Comments and Recommendations Regarding     6
      Columbian’s BOD and Management Performance
  3. Columbian’s Asset Classifications and ALLL                     11
  4. Examples of Examiner Comments and Recommendations Regarding    12
      Columbian’s Asset Quality
  5. Columbian Net Income, ALLL, and Dividends                      16
Contents                                                           Page


  6. Examples of Examiner Comments and Recommendations Regarding    21
      Columbian’s Liquidity

FIGURES
  1. Columbian’s Key CAMELS Ratings                                  3
  2. ADC Loans as a Percent of Average Loans — Compared to Peer     13
  3. ADC Loans as a Percent of Total Capital — Compared to Peer     17
  4. CRE Loans as a Percent of Total Capital — Compared to Peer     17
  5. Net Non-Core Funding Dependence — Compared to Peer             20
Federal Deposit Insurance Corporation                                                                         Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                          Office of Inspector General


DATE:                                     March 11, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of The Columbian Bank and Trust Company,
                                          Topeka, Kansas (Report No. AUD-09-005)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office of
Inspector General (OIG) conducted a material loss 1 review of the failure of The Columbian Bank
and Trust Company (Columbian), Topeka, Kansas. On August 22, 2008, the Kansas Office of
the State Bank Commissioner (OSBC) closed the institution and named the FDIC as receiver.
On September 11, 2008, the FDIC notified the OIG that Columbian’s total assets at closing were
$726 million, and the estimated loss to the Deposit Insurance Fund (DIF) was $61.5 million. As
of December 31, 2008, the estimated loss to the DIF increased to $232 million.

When the DIF incurs a material loss with respect to an insured depository institution for which
the FDIC is appointed receiver, the FDI Act states that the Inspector General of the appropriate
federal banking agency shall make a written report to that agency which reviews the agency’s
supervision of the institution, including the agency’s implementation of FDI Act section 38,
Prompt Corrective Action (PCA); ascertains why the institution’s problems resulted in a material
loss to the DIF; and makes recommendations for preventing such loss in the future.

The audit objectives were to: (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of the institution,
including implementation of the PCA provisions of section 38. Appendix 1 contains details on
our objectives, scope, and methodology, and Appendix 2 contains a glossary of terms.
Acronyms used in the report are listed in Appendix 4.




1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or 2 percent of an
institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions, protects
consumers’ rights, and promotes community investment initiatives by the institutions. The FDIC’s Division of
Supervision and Consumer Protection (DSC) (1) performs examinations of FDIC-supervised institutions to assess
their overall financial condition; management policies and practices, including internal control systems; and
compliance with applicable laws and regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of Columbian’s failure and the FDIC’s efforts to
    require Columbian’s management to operate the bank in a safe and sound manner. A planned
    capping report will summarize our observations on the major causes, trends, and common
    characteristics of financial institution failures resulting in a material loss to the DIF.
    Recommendations in the capping report will address the FDIC’s supervision of the institutions,
    including implementation of the PCA provisions of section 38.


BACKGROUND

    Columbian, formerly known as The Columbian Trust Company, was established and insured by
    the FDIC on October 2, 1978. The institution was renamed The Columbian Bank and Trust
    Company on December 1, 1996, and its primary federal regulator changed from the Office of the
    Comptroller of the Currency to the FDIC. Columbian, which was headquartered in Topeka,
    Kansas:

        •   had seven branches in Kansas and one in Missouri;

        •   provided traditional banking activities within its marketplace and engaged in brokered
            and out-of-territory lending; and

        •   specialized in commercial lending, with a concentration in commercial real estate (CRE),
            including acquisition, development, and construction (ADC) loans.

    Columbian was a wholly owned subsidiary of Columbian Financial Corporation, which was a
    two-bank holding company. Columbian’s local marketplace was the Greater Kansas City and
    Topeka, Kansas, metropolitan areas. The holding company was wholly owned by an individual
    who served as a Director and a Vice President of Columbian. In May 2006, Columbian merged
    with Keystone Bank (Keystone) of St. Louis, Missouri, to allow for the establishment of a branch
    office in Missouri. Additionally, in March 2007, the holding company purchased 100 percent of
    the common stock in The Bank, Weatherford, Texas (Affiliate). The Affiliate is a state
    nonmember institution that was established on June 11, 1987 and provides traditional banking
    services with a concentration in residential interim construction loans. The holding company
    purchased the Affiliate to provide a source of liquidity for loans originated by Columbian.

    DSC’s Kansas City Field Office (KCFO) and the OSBC alternated safety and soundness
    examinations of Columbian, conducting a total of five examinations from October 2003 through
    July 2008. DSC also conducted a joint visitation with the OSBC during June 2008. At the
    January 2008 examination, Columbian’s CAMELS composite rating was downgraded to 4, 3
    indicating unsafe and unsound practices or conditions and a distinct possibility of failure if such
    conditions and practices were not satisfactorily addressed and resolved. As a result of the June

    3
     Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
    evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset
    quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each
    component, and an overall composite score, is assigned a rating of 1 through 5, with 1 having the least regulatory
    concern and 5 having the greatest concern.


                                                              2
2008 visitation, Columbian’s composite rating was downgraded to 5, indicating extremely unsafe
and unsound practices or conditions; critically deficient performance, often with inadequate risk
management practices; and great supervisory concern. Institutions in this category pose a
significant risk to the DIF and have a high probability of failure.

Further, with respect to selected component ratings, as indicated in Figure 1 below, Columbian’s
management, asset quality, and liquidity ratings were downgraded to 3 at the July 2007
examination and steadily decreased with each subsequent examination. At the following January
2008 examination, the same component ratings were downgraded to 4. As a result of the June
2008 visitation, examiners downgraded the component ratings to 5.


                              Figure 1: Columbian's Key CAMELS Ratings

                   15
  CAMELS Ratings




                   24                                                                     Oct-03
                                                                                          Apr-05
                   33
                                                                                          May-06
                   42                                                                     July-07
                                                                                          Jan-08
                   51                                                                     June-08
                   0
                        Composite
                             1        Management
                                           2           Asset3Quality      Liquidity
                                                                           4


                    Source: OIG review of Reports of Examination (ROE) and Problem Bank Memoranda.


In April 2008, the FDIC notified Columbian that the Corporation considered the bank to be in
“troubled condition” and identified the institution as a “problem bank.” To address examination
concerns, including apparent violations of laws and regulations, inadequate risk management
controls, and other safety and soundness issues, the FDIC and OSBC subsequently issued a
Cease and Desist Order (C&D) effective July 15, 2008 (discussed later in this report).

Details on Columbian’s financial condition, as of June 2008, and for the 5 preceding calendar
years follow in Table 1.




                                                                3
     Table 1: Financial Condition of Columbian
                                               30-June-08   31-Dec-07       31-Dec-06   31-Dec-05   31-Dec-04   31-Dec-03
     Total Assets ($000s)                       $735,071    $721,409        $528,816    $384,442    $269,048    $214,139
     Total Deposits ($000)                      $620,354    $566,794        $368,312    $275,851    $191,787    $165,463
     Total Loans ($000s)                        $638,504    $639,996        $479,638    $345,611    $244,865    $183,501
     Net Loan Growth Rate                       15.93%       33.39%          38.39%      41.68%      33.38%      15.34%
     Net Income (Loss) ($000s)                    $3         $15,545         $15,814     $8,203      $5,081      $4,210
     Loan Mix (% of Avg. Gross Loans):
     All Loans Secured by Real Estate           76.60%       69.29%          68.39%      70.75%      75.24%      76.67%
         Construction and Development           52.07%       43.67%          35.59%      30.14%      25.68%      19.75%
         CRE - Nonfarm/ nonresidential          18.14%       17.85%          21.59%      24.82%      30.86%      37.68%
         Multifamily Residential Real Estate     1.13%       0.93%           1.62%       1.62%       1.74%       1.70%
         1-4 Family Residential – excluding      4.92%       6.47%           9.06%       13.35%      15.79%      16.13%
         Home Equity Lines of Credit
          Home Equity Loans                      0.22%       0.29%           0.46%       0.67%       1.00%       1.30%
     Construction and Industrial Loans          23.18%       30.36%          30.87%      28.29%      22.55%      19.85%
     Adverse Classifications Ratio               197%         86%             24%          7%         22%         22%

     Source: Uniform Banking Performance Report (UBPR) and ROEs for Columbian.



RESULTS IN BRIEF

     Columbian failed primarily due to bank management’s pursuit of rapid asset growth concentrated
     in high-risk CRE/ADC loans without adequate loan underwriting and credit administration
     practices. Resulting losses due to asset quality deterioration and a downturn in the economy
     severely eroded capital and, in turn, the availability of wholesale funding sources used by the
     bank to fund its growth. As a result, the bank was unable to satisfy liquidity requirements,
     leading to its failure. Specifically:

     Management. Columbian’s board of directors (BOD) did not ensure that bank management
     identified, measured, monitored, and controlled the risk of the institution’s activities or
     implemented timely corrective actions in response to examiner recommendations. In particular,
     Columbian did not adequately address recommendations included in the FDIC’s ROEs related to
     enhancing liquidity and reducing risk exposure in identified problem assets. Further, the bank’s
     performance bonus program created a cultural climate that emphasized growth and income
     without regard to loan quality.

     Asset Quality. Columbian’s loan portfolio consisted of a high concentration in CRE/ADC
     loans, many of which were brokered and/or out-of-territory. The bank’s ADC loans as a percent
     of its loan portfolio was significantly above peer group averages from 2003 through 2008. 4
     Columbian did not follow sound loan underwriting and credit administration practices, including
     those pertaining to:

     4
      In December 2003 through December 2004, Columbian’s peer group was composed of insured commercial banks
     with assets between $100 million and $300 million in a metropolitan area and with three or more full-service
     banking offices. From December 2005 through June 2008, Columbian’s peer group was composed of insured
     commercial banks with assets between $300 million and $1 billion.


                                                                        4
    (1) loan file documentation, (2) credit monitoring, and (3) accounting for interest reserves. Also,
    Columbian did not maintain a sufficient allowance for loan and lease losses (ALLL). As a result,
    asset quality declined and losses, once recognized, reduced earnings and depleted capital.

    Liquidity. Columbian became increasingly dependent on higher-cost and more volatile sources
    of liquidity, such as brokered deposits, Internet certificates of deposits (CD), and Federal Home
    Loan Bank (FHLB) advances to fund asset growth in excess of the growth in core deposits.
    Liquidity levels and funding strategies were deficient, and bank management did not implement
    the necessary controls for liquidity management, including an adequate contingency liquidity
    plan (CLP), before the bank had deteriorated to an overall unsatisfactory condition.

    Supervision. The FDIC and OSBC conducted regular examinations of Columbian as of its
    charter as a state-nonmember bank in 1996 until its closing in 2008. In 2005, OSBC reported
    weaknesses in Columbian’s credit administration practices and noted the bank’s first use of
    brokered deposits as a wholesale funding source. In 2006, in addition to identifying some of the
    weaknesses reported in the 2005 examination, the FDIC reported concerns regarding out-of-
    territory lending, rapid loan growth, and underfunding of the ALLL. As a result of the July 2007
    examination, the OSBC, in consultation with the FDIC, downgraded Columbian’s composite
    rating to a 3, and the FDIC expedited the 2008 examination. The FDIC did not issue a PCA
    Directive to Columbian because the bank had not become undercapitalized. In July 2008, the
    FDIC and OSBC jointly issued a C&D in an attempt to stop Columbian from operating in an
    unsafe and unsound manner. Among the 19 provisions, the C&D called for improvements in the
    bank’s liquidity and funds management, use of brokered deposits, concentrations of credit, use of
    interest reserves, maintenance of a sufficient ALLL, and loan policy.

    Although the FDIC and OSBC examinations identified the weaknesses in management, asset
    quality, and liquidity that ultimately led to Columbian’s failure, supervisory action was not taken
    commensurate with the risks these weaknesses posed to the institution. Rather, Columbian’s
    apparent strong earnings and lack of non-performing loans, which were attributable to such
    factors as an understated ALLL and the mismanagement of interest reserves, overshadowed
    supervisory concerns with Columbian’s weaknesses until they became more pronounced based
    on changes in economic conditions. As a result, more timely supervisory action directed at
    Columbian’s high-risk lending and weak credit underwriting and administration practices should
    have been taken. In particular, the institution continued to pay substantially increased dividends,
    accept brokered deposits, and originate CRE loans while the 2007 examination report was being
    processed from July to November 2007.


MANAGEMENT

    Examinations from 2003 to 2006 resulted in a 2 (or satisfactory) rating for Columbian’s
    management. At subsequent examinations, the rating was progressively downgraded, indicating
    deficient BOD and management performance, inadequate risk management practices, and
    excessive risk exposure. Columbian’s management provided a performance bonus program that
    emphasized asset growth without regard to loan quality. By 2007, Columbian’s management
    rating indicated that the bank’s problems and significant risks may have been inadequately
    identified, measured, monitored, or controlled, and by 2008, the management rating indicated

                                                      5
      that the bank’s problems required immediate action by the BOD and management to preserve the
      safety and soundness of the institution. Accordingly, examiners made a number of
      recommendations to improve loan quality and to address the increased risks inherent in the loan
      portfolio. However, Columbian’s management did not address these concerns in a timely
      manner, leading to the bank’s inability to meet liquidity requirements.


Failure of Columbian’s Management to Address Examiner Concerns

      Examiner concerns with Columbian’s BOD and management were noted in the October 2003
      examination, including issues related to aggressive loan growth, CRE/ADC high-risk lending,
      inadequate loan policies, and inadequate ALLL methodology. Issues in most of these areas
      continued to be identified in each examination until the bank was closed in 2008. In addition,
      beginning with the April 2005 examination, Columbian’s examinations showed a continuing
      pattern of inadequate loan procedures, understaffing of the lending function, inadequate risk
      assessment practices, growing severity regarding the lack of loan documentation, and inadequate
      credit administration resulting in an increasing risk profile for the institution. The credit
      administration deficiencies were repeated and compounded as noted in the 2006, 2007, and 2008
      examinations.

      Although Columbian’s annual loan growth exceeded 33 percent annually from 2004 through
      2007, management did not adequately address examiner concerns to ensure sufficient staff to
      monitor and review existing loans. Each examination from 2005 to the bank’s failure in 2008
      made reference to the inadequacy of Columbian’s loan review program, especially considering
      the increased risk of the loan portfolio, including brokered and/or out-of-territory ADC loans.
      From December 2004 to June 2008, the percentage of the loan portfolio committed to higher-risk
      ADC loans increased from 25.7 percent to 52.1 percent. Table 2 provides examples of examiner
      comments and recommendations related to Columbian’s BOD and management. The table also
      indicates that many of these conditions existed for several years prior to the bank’s closing.

      Table 2: Examples of Examiner Comments and Recommendations Regarding
      Columbian’s BOD and Management Performance
                              Examiner Comments                                        Examination Dates
                                                                               Oct    Apr   May     July   Jan
                                                                               2003   2005 2006     2007   2008
      Overall conclusion on BOD and management performance
       • Satisfactory                                                           9      9      9
       • Improvement needed and failure to adequately identify, measure,                             9      9
         monitor, and control risks
      Compliance with laws and regulations
       • Apparent violations related to insider, affiliate, or Bank Secrecy     9      9             9      9
         Act activities
       • Apparent violations related to loan underwriting and/or credit                              9      9
         administration
      Growth of Columbian’s operations
       • Loan growth was aggressive, significant, or faster than anticipated    9      9      9      9      9
       • Loan growth supported by wholesale liquidity sources                          9      9      9      9
       • Loan portfolio was focused on CRE/ADC high-risk lending                9             9      9      9
       • Loan concentrations in brokered and/or out-of-territory loans          9             9      9      9


                                                                6
                             Examiner Comments                                        Examination Dates
                                                                              Oct    Apr   May     July   Jan
                                                                              2003   2005 2006     2007   2008
     Loan policy and procedures
       Inadequate loan policies                                                9      9      9      9      9
       • Inadequate loan underwriting and/or credit administration                    9      9      9      9
         procedures
       • Inadequate methodology for determining ALLL                           9      9      9      9      9
       • Inadequate staffing of loan department and/or inadequate                     9      9      9      9
         management succession plan
       • Inadequate loan review program                                               9      9      9      9
     Risk management
       • Inadequate internal audit program and/or related risk assessment      9      9      9      9      9
         process
       • Inadequate attention to, and implementation of, examiner                            9      9      9
         recommendations
       • Inadequate strategic plan and/or performance bonus program                                 9      9
     Examiner recommendations
       • Improve policies and procedures to ensure compliance with laws        9      9      9
         and regulations
       • Improve loan policy and procedures to include appropriate internal    9      9      9      9      9
         controls
       • Improve oversight due to the increasing risk associated with                        9      9      9
         continued aggressive growth
       • Improve the loan review program and/or related watch list                    9      9      9      9
       • Improve the audit program and related risk management activities      9      9      9      9      9
       • Improve the ALLL methodology                                          9      9      9      9      9
       • Improve loan underwriting and/ or credit administration procedures           9      9      9      9
       • Take action to limit asset growth                                                                 9
       • Develop written management succession plan                                                 9
     Source: ROEs issued by the OSBC and the FDIC.


Risk Management

     Columbian’s management did not ensure that adequate risk management controls were
     implemented and followed and did not act in a timely manner to address deficiencies identified
     by examiners related to the bank’s inadequate risk management controls for loan documentation,
     administration, and monitoring. Columbian’s management fostered a culture of high-risk
     tolerance and rapid growth financed with wholesale funding without apparent regard for the
     overall safety and soundness of the institution.

     Financial institutions with high concentrations of CRE loans require strong concentration risk
     management practices. Beginning in 2003, Columbian began rapidly acquiring and originating
     CRE/ADC loans with a significant number of out-of-territory loans. By the January 2008
     examination, 25 loans, totaling approximately $130 million, had been purchased through a loan
     brokerage firm and carried interest rates as high as prime plus 4 percent as well as high
     origination and brokers’ fees. In most instances, Columbian financed the fees and provided
     substantial interest reserves as part of the total loan commitment. In spite of its high-risk
     tolerance, Columbian management did not adequately staff the lending function, resulting in
     ongoing weaknesses in credit monitoring.


                                                              7
     Beginning with the October 2003 examination, examiners reported concerns related to
     Columbian’s risk management practices. The 2006 examination risk management assessment
     indicated that the bank’s risk management policies and practices for the lending function needed
     to be improved. The ROE referenced Columbian’s understaffed lending function, stating that the
     staff lacked the time to fully document and analyze borrower financial information such as cash
     flow and debt-service coverage ratios and that files generally lacked documented balance sheet
     and income information. Columbian’s management rating was less than satisfactory in the 2007
     ROE. The ROE stated that the bank had experienced a significant decline in asset quality due
     largely to management’s weak oversight. Despite the criticisms in these examinations,
     Columbian’s management failed to adequately address examiner concerns and paid substantially
     increased dividends totaling over $13 million in 2007.

     The 2008 examination continued to report that inadequate staffing levels may have also
     accounted for the lack of adequate analyses of borrower financial conditions and collateral
     values both at origination and while servicing the portfolio. The ROE also noted that
     management had not adequately addressed the following ongoing criticisms and concerns from
     previous examinations:

        •   The lending function needed to be strengthened.
        •   The loan policy needed to be revised to address brokered and/or out-of-territory loans.
        •   The severity of the risk rating for loans on the watch list was a concern.
        •   The ALLL methodology needed to be revised to address accounting requirements for
            impaired loans.


Performance Bonus Program

     According to the January 2008 ROE, Columbian management implemented performance bonus
     objectives that contributed to the institution’s problems and high-risk tolerance by
     overemphasizing growth and income. The 2008 ROE and related work papers indicated that
     Columbian’s 2007 performance bonus objectives were to:

        •   achieve asset footings of $700 million,
        •   obtain a net interest spread of 5.25 percent,
        •   achieve an efficiency ratio (which measures the proportion of revenues that are absorbed
            by overhead expenses) of 28,
        •   realize a 2.5 percent return on assets, and
        •   provide a return on equity of at least 30 percent.

     There is no indication in the examination work papers that the performance bonus objectives
     included a qualitative component. Additional bonuses were available to certain employees based
     on the employees’ contributions, as determined by the sole shareholder of the bank’s holding
     company. The 2008 ROE noted that this performance bonus structure allowed some officers to
     receive bonuses in excess of 40 percent of their salary despite being responsible for originating
     the majority of the adversely classified loans.



                                                      8
      To address this weakness, the 2008 ROE recommended that the bank’s BOD and management:
      revise and realign the strategic plan, 2008 budget, and performance bonus objectives to meet the
      institution’s need to return the bank to a satisfactory financial condition. Specific guidance on
      changes needed regarding the performance bonus objectives were not captured in the ROE.
      Although the bank’s performance bonus program appears to have been in effect during at least
      2006 and 2007, only the 2008 ROE contained a criticism of this program.

      DSC’s Risk Management Manual of Examination Policies (Examination Manual) states that the
      reasonableness of compensation policies is one of many factors used by examiners to rate the
      performance and capability of management and the BOD. In addition, the standard Risk
      Management Examination Request List (Request List) asks the bank to summarize loan officer
      and management incentive programs, if any. However, the documentation DSC provided to us
      did not include 2006 and 2007 Request List items; therefore, we were unable to determine what
      information about the bank’s performance bonus program had been provided to the 2006 and
      2007 examination teams.

      Subsequent to the closing of Columbian, the FDIC took action to provide additional guidelines
      on the compensations policies. Specifically, on November 12, 2008 the FDIC, along with the
      other federal regulatory agencies, issued an interagency statement, which notes that:

             Poorly-designed management compensation policies can create perverse incentives that can
             ultimately jeopardize the health of the banking organization. Management compensation policies
             should be aligned with the long-term prudential interests of the institution, should provide
             appropriate incentives for safe and sound behavior, and should structure compensation to prevent
             short-term payments for transactions with long-term horizons.

      The statement emphasizes that banking organizations are expected to regularly review their
      management compensation policies to ensure they are consistent with the long-run objectives of
      the organization and sound lending and risk management practices. We consider performance
      bonus programs that do not address asset quality objectives to be a significant concern, which we
      will address in our summary reports covering multiple bank failures.


Regulatory Supervision Related to Management

      According to the Examination Manual, the quality of management is probably the single most
      important element in the successful operation of a bank. The BOD is responsible for formulating
      sound policies and objectives for the bank, effective supervision of its affairs, and promotion of
      its welfare, while the primary responsibility of senior management is implementing the BOD’s
      policies and objectives in the bank’s day-to-day operations. Also according to the manual, the
      capability and performance of management and the BOD is rated based upon, but not limited to,
      an assessment of compliance with laws and regulations.

      Prior to the 2007 ROE, Columbian’s management had been favorably rated since 1993.
      Although the 2005 and 2006 ROEs included examiner concerns and recommendations related to
      credit administration, the management rating was not downgraded because asset quality was
      described as being strong, or satisfactory, at that time.


                                                         9
    In July 2007, the OSBC and FDIC conducted a joint examination of Columbian. Examiners
    originally told Columbian’s management in late July that a preliminary composite and
    management rating of 2 would be assigned. However, OSBC and FDIC review of the draft ROE
    resulted in concerns with the trends and deterioration in the bank’s condition, centering on the
    bank’s CRE portfolio and inadequate risk identification, funding practices, and overall
    administration of operations. Columbian’s management and BOD were notified in November
    2007 that the final composite and management ratings had been downgraded to 3. Due to the
    extent of the regulators’ concerns, in addition to the downgrade, the FDIC accelerated the next
    examination to commence in late January 2008. According to DSC officials, further supervisory
    action was considered but not taken, and Columbian management continued to grow the bank.

    From July 1 through December 31, 2007, Columbian’s CRE loans increased substantially,
    growing by $104 million—a 31 percent growth rate—while asset quality significantly
    deteriorated. Much of this growth occurred in the last quarter of 2007. In addition, during the
    last quarter of 2007, the bank continued to be heavily reliant on brokered deposits and Internet
    CDs to fund loan growth, and brokered deposits grew by $69.5 million. In response to the
    adverse examination findings in the 2008 ROE, the FDIC and OSBC jointly initiated formal
    enforcement action through a C&D, sent to Columbian’s BOD in May 2008, that included
    provisions addressing the identified deficiencies. However, Columbian’s BOD initially declined
    to stipulate to the proposed order.

    The FDIC and OSBC conducted a limited-scope visitation beginning on June 26, 2008, to follow
    up on the 2008 examination. The visitation found that Columbian’s management had done little
    to address regulatory concerns. Consequently, Columbian’s management rating was
    downgraded to 5. Columbian’s BOD subsequently stipulated to the C&D effective July 15,
    2008. However, the bank’s financial problems at this point were too severe for the C&D to have
    an effect on Columbian’s financial condition, and Columbian was closed in August 2008.


ASSET QUALITY

    Columbian’s asset quality was rated either 1 or 2 at examinations in 2003, 2005, and 2006. The
    2007 and 2008 examinations progressively downgraded asset quality to 3 and 4, respectively,
    indicating that the bank’s level of risk and problem assets were significant and inadequately
    controlled, subjecting the bank to potential losses that threatened the viability of the institution.
    By the June 2008 visitation, FDIC examiners concluded that Columbian’s asset quality was
    critically deficient and presented an imminent threat to the institution’s viability.

    Corresponding increases in Columbian’s adversely classified assets and ALLL were also
    significant (see Table 3). In particular, Columbian’s asset quality deteriorated as asset
    classifications significantly increased from $3.8 million in 2003 to over $203 million as of June 30,
    2008, about 32 percent of the total loan portfolio. At the October 2003 examination, the adversely
    classified items were 22 percent of Tier 1 Capital plus the ALLL. By the June 2008 visitation, this
    amount rose to 285 percent of Tier 1 Capital plus the ALLL.




                                                       10
      Table 3: Columbian’s Asset Classifications and ALLL
                                                          Asset Quality
                                                      (Dollars in Thousands)
                                    Asset Classifications                            Analysis of ALLL

                                                              Total                           Increase in
                                                              Adversely    ALLL               ALLL
      Examination/                                            Classified   Computed by        Required by
      Visitation     Substandard   Doubtful      Loss         Items        Columbian          Examiners
      Date

      Oct 03         $3,805        0             $52          $3,857       $2,215             0
      April 05       $2,338        0             $31          $2,369       $2,679             0
      May 06         $9,332        0             $218         $9,550       $3,897             $900
      July 07        $44,050       $2,116        $806         $46,972      $7,152             0
      Jan 08         $115,946      0             $7,330       $123,276     $8,127             $8,117
      June 08        $203,374      $130          0            $203,504     $16,906            0
      Source: ROEs and a 2008 Visitation Summary Memorandum.



Examiner Concerns and Recommendations Regarding Asset Quality

      Examiner concerns regarding Columbian’s asset quality related to its concentration in high-risk
      CRE/ADC loans and the bank’s lack of adequate loan documentation, inadequate loan review,
      and monitoring of risk in the CRE/ADC loan concentrations (see Table 4). A significant portion
      of the CRE/ADC loan portfolio included high-risk terms, such as high loan-to-value ratios,
      interest-only payments, and interest reserves used to capitalize interest expense. We consider
      these high-risk indicators to be a significant concern, which we will address in our summary
      reports covering multiple bank failures.




                                                              11
    Table 4: Examples of Examiner Comments and Recommendations Regarding Columbian’s
    Asset Quality
                              Examiner Comments                                       Examination Dates
                                                                             Oct     April May      July    Jan
                                                                             2003    2005   2006   2007     2008
      Overall conclusion on Columbian’s asset quality
          •   Strong or satisfactory                                             9    9         9
          •   Less than satisfactory                                                                    9       9
      CRE and ADC loan concentrations
          •   Concentration developing or already developed                      9              9       9       9
          •   Impact of a declining economic environment noted                                          9       9
      Adverse classifications
          •   Noticeable loan quality deterioration/increase in adverse      9              9       9       9
              classifications
      Assessment of asset management practices
          •   Inadequate loan documentation                                      9              9       9       9
          •   Inadequate loan review write-ups                                        9         9       9       9
          •   ALLL not adequately funded                                                        9               9
          •   Concern related to use of interest reserves                                       9               9
          •   Internal watch list did not adequately reflect all potential       9              9       9       9
              problem loans
          •   Inadequate categorization of out-of-territory loans                                       9
          •   Loan or asset mix outside of bank policy guidelines                     9                 9       9
      Examiner recommendations
          •   Monitor risk in the CRE and ADC loan concentrations                9                      9       9
          •   Adequately fund the ALLL allowance                                                9               9
          •   Improve accounting for loans with interest reserves                                               9
          •   Significantly reduce problem assets to more acceptable                                            9
              levels
          •   Loan review write-ups should be more thorough                           9
      Source: ROEs for Columbian.



Concentration in CRE and ADC Loans

      Columbian’s asset quality declined as its loan portfolio became increasingly concentrated in
      ADC loans, many of which were brokered and/or out-of-territory. Figure 2, which follows,
      shows that Columbian’s ADC loan portfolio, as a percent of average loans, was significantly
      above the bank’s peer group results.




                                                                   12
                             Figure 2: ADC Loans as a Percent of Average Loans -
                                             Compared to Peer

              60%                                                                  52.07%
                                                                      43.67%
              50%
                                                        35.59%
              40%
                                           30.14%                                                    Columbian
      Ratio




                                25.68%
              30%
                    19.75%                                                  16.31%                   Peer
                                                              14.96%                     15.91%
              20%
                        9.16%        10.44%       12.72%
              10%
              0%
                    Dec-03       Dec-04       Dec-05      Dec-06       Dec-07       June-08
                                              Period End Date
    Source: UBPRs for Columbian.



From December 1999 through December 2003, Columbian’s ratio of ADC loans to average
loans increased less than 4 percentage points from 16.11 to 19.75 percent. However, beginning
in 2004, such loans increased significantly, while nonfarm/nonresidential CRE and 1-to-4 family
residential loans declined as a percentage of the portfolio. ROEs for 2005 through 2008
indicated that the growth in ADC lending was encouraged by the high yields on these products.

As of the July 2007 examination, CRE lending represented 523 percent of Tier 1 Capital, and by
January 2008, CRE loans represented 973 percent of Tier 1 Capital. Over half of the CRE loans
were to borrowers outside the states of Kansas and Missouri, which increased risk due to
management’s lack of familiarity with regional conditions.

On December 12, 2006, the federal banking agencies issued joint guidance on CRE lending
entitled, Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
The guidance acknowledges that a concentration in CRE loans, coupled with weak loan
underwriting and depressed CRE markets, has contributed to significant loan losses. 5 Contrary
to this guidance, Columbian focused its loan portfolio in high-risk CRE loans, with an increasing
emphasis on ADC loans, and failed to ensure that adequate risk management controls were
developed and implemented. Columbian did not follow sound loan underwriting and credit
administration practices and did not maintain a sufficient ALLL. Examiners recommended
several actions to mitigate the bank’s CRE risk. However, bank management failed to
implement actions to adequately address those recommendations, and asset quality continued to
decline. As shown previously in Table 3, beginning with the July 2007 examination and
continuing through the June 2008 visitation, examiners identified an increasing level of adverse
5
  The FDIC also issued Financial Institution Letter (FIL) 22-2008 on March 17, 2008, entitled, Managing
Commercial Real Estate Concentrations In a Challenging Environment, which re-emphasized the importance of
strong capital and ALLL and loan risk-management practices for state nonmember institutions with significant CRE
and construction and development loan concentrations.


                                                         13
classifications. As asset quality declined and losses were recognized, Columbian’s liquidity
position became critical, and earnings and capital were eroded.


Interest Reserves. Columbian improperly accounted for interest reserves, which masked the
condition of certain problem loans. As a result of the June 2008 visitation, FDIC examiners
concluded that there appeared to be numerous loans that were “current” solely because of the
bank’s ongoing practice of adding interest payments to a note’s principal. Adequate records had
not been compiled by the bank; therefore, examiners could not determine the extent of
inappropriately capitalized interest and fees (origination and broker fees) and thus the true
earnings and capital positions of the bank. Regardless, examiners concluded that both earnings
and capital were likely overstated.

The FDIC addressed the use of interest reserves within existing examiner guidance. 6 The
guidance reinforces the importance of providing clear standards on the use of interest reserves as
part of a bank’s loan policy, monitoring the adequacy of the remaining interest reserve as part of
an ADC lending project, and assessing the appropriateness of the use of interest reserves during
the entire term of the loan. Further, an article in DSC’s Supervisory Insights, Summer 2008,
states that the Financial Accounting Standards Board has not issued standards focused
specifically on accounting for interest reserves from the lender’s standpoint. However, long-
standing accounting concepts that govern the recognition of income are applicable to interest
reserves 7 and state that, in general, interest that has been added to the balance of a loan through
the use of an interest reserve should not be recognized as income if its collectibility is not
reasonably assured.

Examiner concern about inappropriate use of interest reserves by the bank first appeared in the
January 2008 ROE for Columbian. In particular, the ROE noted numerous instances where
interest reserves had been improperly utilized to stabilize income-producing properties. The
Examination Manual notes that, with some exceptions, the retention of work papers beyond one
examination for well-rated banks is generally discouraged. Accordingly, DSC personnel
indicated that the 2006 examination work papers had been destroyed. In addition, only a limited
number of the 2007 examination work papers were available for our review. Therefore, we were
unable to determine the extent to which concerns over the misuse of interest reserves may have
been noted in the 2006 or 2007 examination work papers. 8 However, the 2006 ROE did caution
management that, because loan terms often included the financing of origination and broker fees
and the monthly interest payments through interest reserve accounts, many loans could
deteriorate without detection unless management provided adequate ongoing monitoring.


Allowance for Loan and Lease Losses. Columbian’s methodology for determining the ALLL
did not comply with interagency policy. According to the Interagency Policy Statement on the
Allowance for Loan and Lease Losses (FIL-105-2006), dated December 13, 2006, each

6
  FDIC Examination Module, Construction, and Land Development Core Analysis Procedures, November 1997.
7
  Accounting Research Bulletin No. 43, Chapter 1A, paragraph 1; Accounting Principles Board Opinion No. 10,
paragraph 12; and Statement of Financial Accounting Concepts No. 5, paragraph 84(g).
8
  The OIG intends to review DSC’s work paper retention policies in the near future.


                                                        14
institution must analyze the collectibility of its loans and maintain an ALLL at a level that is
appropriate and determined to be in accordance with Generally Accepted Accounting Principles
(GAAP). 9 An appropriate ALLL covers estimated loan losses on individually evaluated loans
that are determined to be impaired as well as estimated loan losses inherent in the remainder of
the loan and lease portfolio.

From 2003 to 2008, during a period when Columbian was engaging in higher-risk lending
practices and paying dividends, examiner recommendations addressed either increasing
Columbian’s ALLL or improving the ALLL methodology as shown below.

    •   In 2003, examiners reported that the methodology for calculating an adequate ALLL was
        flawed and that it needed to be amended to reflect current accounting standards.
    •   In 2005, examiners recommended proper procedural guidelines for ensuring GAAP
        compliance.
    •   In 2006, examiners reported that the ALLL was underfunded by $600,000 - $900,000 as
        of March 31. Examiners recommended that the ALLL be increased commensurate with
        the additional credit and concentration risk exposure. By September 30, bank
        management had increased the ALLL by $2 million, which was 1.43 percent of total
        loans and leases.
    •   In 2007, examiners found that given the size, composition, and additional risk identified
        in the loan portfolio, the ALLL methodology needed improvement. In particular,
        between the 2006 and 2007 examinations, classified assets nearly quintupled; in contrast,
        the ALLL did not even double, and Columbian paid over $13 million in dividends in
        2007—more than double any previous dividend. Examiners recommended that
        management revise the methodology to include a line-by-line dollar amount that
        represents the actual impairment within each loan.
    •   In 2008, examiners reported that the ALLL was significantly underfunded because a
        number of classified loans were not identified on management’s watch list or were
        downgraded by examiners. As a result, an increase of $8.1 million was recommended.

As Columbian’s assets deteriorated and the need to substantially increase the ALLL became
apparent, 2007 earnings were significantly impacted (see Table 5). Specifically, Columbian’s
initially reported earnings of $23.4 million in 2007 were overstated based on the ALLL being
underfunded. The increase in the ALLL and related provision for loan loss led to a $7.8 million
reduction in earnings. These earnings did little to augment capital due to the significant
dividends approved by the BOD and paid during 2007. In spite of a $1 million capital injection
during December 2007, the bank’s capital category declined to adequately capitalized as of year
end 2007. An additional provision for loan loss and dividends during 2008 continued to erode
earnings and capital.



9
 Interagency Policy Statement on the Allowance for Loan and Lease Losses (FIL-105-2006), dated December 13,
2006, reiterates key concepts and requirements pertaining to the ALLL included in GAAP and existing supervisory
guidance. In addition, the policy describes the nature and purpose of the ALLL; the responsibilities of BODs,
management, and examiners; factors to be considered in the estimation of the ALLL; and the objectives and
elements of an effective loan review system, including a sound loan grading system.


                                                         15
      Table 5: Columbian Net Income, ALLL, and Dividends
               (Dollars in Thousands)
                                     2003     2004        2005        2006        2007        June
                                                                                              2008
       Net Income                $4,210      $5,081      $8,203     $15,814     $15,545        $3
       ALLL                      $2,517      $3,463      $3,603      $6,318      $8,642     $16,906
       Dividends                 $1,525      $3,125      $4,685      $5,825     $13,445      $5,200
      Source: UBPRs for Columbian.



      In January 2008, Columbian hired an outside consultant to assist with its lending program.
      Based on the consultant’s work, by June 2008, Columbian had added $8.3 million (net) to the
      ALLL, increasing the total to $16.9 million, or 2.65 percent of total loans. The consultant’s loan
      review in 2008 concluded that it is likely that Columbian’s ALLL was underfunded not only
      because of the bank’s inadequate methodology but also due to Columbian’s inadequate internal
      loan review program due to the understaffing reported by examiners since 2005.


Regulatory Supervision Related to Asset Quality

      On December 12, 2006, the FDIC issued interagency guidance on CRE lending entitled,
      Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
      According to the guidance, CRE lending in general, and construction lending in particular, may
      require a greater level of supervisory oversight. Specifically, the guidance states that an
      institution may be identified for further supervisory analysis of the level and nature of risk if it
      has experienced rapid growth in CRE lending, has notable exposure to a specific type of CRE, or
      is approaching or exceeds the following supervisory criteria:

              (1) total reported loans for construction, land development, and other land represent 100
              percent or more of the institution’s total capital; or

              (2) total CRE loans represent 300 percent or more of the institution’s total capital, and
              the outstanding balance of the institution’s CRE loan portfolio has increased by 50
              percent or more during the prior 36 months.

      As noted in Figures 3 and 4, from 2003 to 2008, Columbian met both of the capital criteria
      thresholds for additional supervisory oversight. In addition, Columbian’s ADC and CRE loans
      as a percentage of total risk-based capital were historically much higher than its peer group
      average.




                                                        16
                      Figure 3: ADC Loans as a Percent of Total Capital
                                    - Compared to Peer

            600%
                                                                               562.55%
                                                                   509.05%
            500%


            400%
                                          327.25%
                                                      292.98%
    Ratio




                                                                                                Columbian
            300%
                                                                                                Peer
                   217.18%     207.46%
            200%
                                                            117.39%    123.54%      118.13%
                                                103.53%
                        69.12%      80.62%
            100%


              0%
                    Dec-03       Dec-04      Dec-05    Dec-06       Dec-07      June-08

  Source: UBPRs for Columbian.                Period End Date



                             Figure 4: CRE Loans as a Percent of Total Capital
                                           - Compared to Peer

            900%                                                                 787.31%
            800%
                                                                   680.75%
            700%
                   573.21%              552.18%
            600%
                             435.63%               465.71%                                       Columbian
   Ratio




            500%
                                  323.50%    357.92%    371.29%           377.18%     376.95%
            400%                                                                                 Peer
                       309.01%
            300%
            200%
            100%
              0%
                    Dec-03       Dec-04      Dec-05       Dec-06      Dec-07      June-08
                                               Period End Date

  Source: UBPRs for Columbian.


The ROE for the 2003 examination assigned a 2 rating to asset quality yet highlighted the
significant concentration of CRE lending at Columbian and the additional risk that this type of
lending entailed and recommended that management closely monitor and consider that risk when
formulating plans and policies. The 2005 ROE assigned a 1 rating to asset quality and did not
identify CRE lending as a concentration or mention that such lending was a significant risk area.



                                                       17
However, all subsequent ROEs highlighted and emphasized the concentration of CRE and
construction lending and the risks these loans held for Columbian.

Due to the bank’s aggressive growth funding strategy of using brokered deposits to acquire
brokered and out-of-territory loans, examiners expanded their procedures in the lending function
during the 2006 examination. In addition, examiners focused on the internal control structure
due to comments made by the external auditor in a management letter, which identified a general
lack of current financial information on borrowers. Examiners noted that debt service coverage
and financial and income information were not well-documented. The 2006 ROE noted control
weaknesses related to ongoing credit monitoring due to understaffing of the lending function,
which caused inadequate analysis of borrower financial information and inadequate
documentation of credit files. However, examiners determined that these weaknesses were not
severe enough to warrant a downgrade in asset quality based on the definitions in the
Examination Manual.

Columbian’s aggressive growth strategies and the increase in the complexity and volume of
lending activities identified in the 2006 ROE should have resulted in more timely supervisory
action directed at Columbian’s high-risk lending, weak loan underwriting, and deficient credit
administration practices. However, due to the limited dollar amount of classified assets identified
during the 2006 examination, additional supervisory action was not taken, and the bank’s high-
risk lending, weak loan underwriting, and deficient credit administration practices continued.
Identification of classified assets was impaired, in part, due to the use of interest reserves and
lack of adequate loan monitoring by the institution.

The 2007 examination downgraded Columbian’s asset quality to 3; however, after the exit
conference with management in July 2007, the ROE required about 4 months of processing to
revise the draft report to reflect the supervisory concerns of the FDIC’s Regional Office and
OSBC. Subsequently, examiners met with Columbian’s management on November 15, 2007, to
convey these revised conclusions and discuss the rating changes, and the final report was
presented to the bank in December 2007. The ROE indicated that asset quality as of May 31,
2007 had deteriorated and was less than satisfactory. However, as previously stated, between
June 2007 and January 2008, Columbian’s CRE loan portfolio grew 31 percent; brokered
deposits increased by $85.4 million; and additional dividends, totaling over $4 million, were
declared and paid. Additionally, the ROE documents aspects of the bank’s asset structure and
culture that created a greater degree of risk for the bank. These same risks were identified in the
2006 examination. No supervisory action was taken at that time because the number and dollar
value of loan classifications were still considered low.


Concentrations of Credit. The 2003 through 2007 examinations indicated that risk
management processes related to asset concentrations were adequate, including monitoring and
reporting of concentrations to the BOD. In particular, the 2007 ROE stated that “Management
has developed adequate controls to monitor and manage the level of concentrations.” Yet about
5 months later, in the 2008 ROE, examiners criticized concentration-related procedures, stating,
“Examiners found no evidence that management stress tests its credit portfolio or individual
loans to ascertain the impact of changes in interest rate or in economic conditions.” The 2008
ROE also noted that market feasibility analysis for ADC loans was generally lacking and that


                                                  18
     management information systems needed to be enhanced to accommodate the complexity of the
     loan portfolio. Stress tests, market analysis, and adequate management information systems are
     key elements in the December 2006 interagency guidance for monitoring concentration risk.
     FDIC concern about the bank’s inability to monitor and manage its concentrations was so great
     that the July 2008 C&D required the bank to cease and desist engaging in hazardous
     concentration-related lending practices such as the:

        •   extension of credit with inadequate diversification of risk,
        •   failure to obtain market feasibility analyses for land ADC, and
        •   extension of out-of-territory or market area loans without adequate knowledge and
            expertise regarding the locality.

     The C&D required the bank to prepare a written Concentration Plan for systematically reducing
     and monitoring the bank’s portfolio of loans or other extensions of credit that, at a minimum,
     should include:

        •   dollar levels and percent of capital to which the bank shall reduce each concentration,
        •   timeframes for achieving the reduction in dollar levels, and
        •   provisions for the submission of monthly written progress reports to the bank’s BOD.

     Elevated and timely criticism in the 2007 ROE regarding the bank’s management and monitoring
     of its loan concentrations may have encouraged earlier corrective action by bank management.
     We consider loan concentrations to be a significant concern, which we will address in our
     summary reports covering multiple bank failures.


LIQUIDITY

     Examiners for the 2003, 2005, and 2006 risk management examinations assigned a 2 component
     rating to liquidity. Columbian’s liquidity rating was downgraded to a 3 at the July 2007
     examination due to a continued increase in the bank’s reliance on potentially volatile non-core
     funding sources. By the June 2008 visitation, liquidity had been downgraded to a 5, indicating
     that Columbian’s liquidity levels or funds management practices were so critically deficient that
     the bank’s continued viability was threatened. Institutions rated 5 require immediate external
     financial assistance to meet maturing obligations or other liquidity needs.

     A key metric of the risks related to a bank’s liquidity management is the net non-core
     dependence ratio. This ratio indicates the degree to which the bank relies on non-
     core/potentially volatile liabilities, such as time deposits of more than $100,000; brokered
     deposits; and FHLB advances to fund long-term earning assets. Generally, the lower the ratio,
     the less risk exposure there is for the bank. Higher ratios reflect a reliance on funding sources
     that may not be available in times of financial stress or adverse changes in market conditions. As
     noted in Figure 5, which follows, during the five most recent examinations, Columbian’s reliance
     on non-core/volatile liabilities exceeded its peer group average, with the variance continually
     increasing. This pattern was attributable to the considerable focus by the BOD and senior
     management on brokered deposits to provide liquidity. ROEs indicated that bank management


                                                      19
      had considered brokered deposits less expensive than traditional forms of funding. The 2005
      ROE notes that management began accepting brokered deposits as a funding source in March
      2005, with an initial acquisition of $17.9 million. By the January 2008 examination, brokered
      deposits had soared to $261 million, or 46 percent of total deposits.


                            Figure 5: Net Non-Core Funding Dependence
                                        - Compared to Peer

                 70%
                                                                         60.29%
                 60%
                                              49.16%        52.24%
                 50%
                                 38.73%
                 40%                                                                    Columbian
         Ratio




                                                                               25.62%
                       27.53%                                      22.85%               Peer
                 30%                                   22.16%
                 20%                   15.21%
                           12.56%
                 10%
                 0%
                        Oct-03     Apr-05      May-06           Jul-07      Jan-08
                                             Exam Date

           Source: OIG review of ROEs for Columbian.


Examiner Concerns and Recommendations Regarding Liquidity

      Although Columbian had an historically high reliance on non-core funding sources, the 2003
      through 2006 ROEs rated Columbian’s liquidity as satisfactory. In particular, the 2006 ROE
      noted that the bank’s funds management practices were sound and that management
      satisfactorily monitored the bank’s liquidity position and managed the bank’s reliance on
      wholesale funding sources. However, the 2005 and 2006 ROEs highlighted a continuing pattern
      in which management and the BOD allowed Columbian to operate outside of liquidity-related
      parameters established for the bank.

      Examiner concerns over Columbian’s liquidity position were first emphasized in the 2007 ROE.
      This report concluded that liquidity was marginally adequate and encouraged management to
      continually evaluate the adequacy of its processes and procedures related to brokered deposits,
      including the acceptable level of such deposits. In addition, management was encouraged to
      develop strategies to retain and build new core deposit relationships to reduce the bank’s reliance
      on non-core funding sources. Although examiners raised concern about the level of non-core
      funding, they concluded that the risks to liquidity were mitigated by “a generally adequate Funds
      Management Policy, a sound monitoring program, and vigilant oversight” performed daily by
      management.



                                                           20
 Approximately 7 months after completion of the 2007 examination, the 2008 examination
 concluded that the bank’s liquidity levels and funding strategies were deficient, considering the
 weakened financial condition of the bank as a result of asset quality deficiencies identified
 during the 2007 and 2008 examinations. The 2008 ROE highlighted the significant liquidity
 risks that could arise from the disclosure of negative financial results. In particular, bank
 management expressed concern about the bank’s ability to retain several customers that
 controlled a large volume of deposits. Also, contract provisions with certain deposit brokers, the
 Bankers Bank of Kansas, and the FHLB, could have limited the availability of funds if the
 bank’s financial condition continued to deteriorate. The 2008 ROE contained the same
 recommendations as the 2007 ROE, that is, to re-evaluate liquidity guidelines and reduce non-
 core funding. In addition, the ROE recommended that the bank develop a formal CLP to
 “address the downside risks associated with the bank’s wholesale funding position and the
 limited availability of liquid assets.”

 A summary of examiner comments and recommendations related to liquidity follows in Table 6.

Table 6: Examples of Examiner Comments and Recommendations Regarding
Columbian’s Liquidity
                          Examiner Comments                                       Examination Dates
                                                                          Oct    Apr   May     July   Jan
                                                                          2003   2005  2006    2007   2008
 Overall conclusion on Columbian’s liquidity
   • Satisfactory                                                         9      9      9
   • Less than satisfactory                                                                    9      9
 Assessment of liquidity management practices
   • Management closely monitors liquidity                                9      9      9      9
   • Funds management practices are sound or adequate                     9      9      9      9
   • Liquidity and funding strategies are deficient                                                   9
   • Increased oversight needed for brokered deposits                                          9
   • Operating outside the parameters established in liquidity policy            9      9      9      9
     and/or certain parameters are too liberal
 Funding source risks
   • Increasing reliance on non-core funding sources                      9      9      9      9      9
   • Primary reliance on FHLB borrowings for liquidity                    9      9
   • Primary reliance on brokered deposits for liquidity                                9      9      9
   • Several customers control a large volume of deposits                 9      9                    9
   • Contract provisions with deposit brokers, FHLB, and others impair                                9
     availability of funds as financial condition deteriorates
 Examiner recommendations
   • Evaluate adequacy of guidelines for liquidity related parameters/           9             9      9
     ratios
   • Continually evaluate adequacy of processes and procedures related                         9
     to brokered deposits
   • Develop plans to increase core deposit funding and reduce reliance                        9      9
     on wholesale funding
   • Develop a formal CLP                                                                             9
Source: ROEs for Columbian.




                                                           21
Lack of an Adequate CLP. Columbian did not implement sound liquidity management
controls that included a comprehensive CLP. As a result, when Columbian’s liquidity position
became severely critical in 2008, bank management was ineffective in obtaining sufficient
liquidity for the institution. In particular, the August 2008 Pre-Closing Strategic Resolution
Plan, issued by the Division of Resolutions and Receiverships (DRR), for Columbian noted that
liquidity issues were the proximate cause for the closing of this bank. The FDIC had significant
concern that the bank’s largest depositor and other large depositors might withdraw their
accounts from the bank and that Columbian may not have sufficient liquidity to fund these
withdrawals.

According to the Examination Manual, CLPs should be in force and should include strategies for
handling liquidity crises and procedures for addressing cash-flow shortfalls in emergency
situations. The manual also states that financial institutions should have an adequate CLP in
place to manage and monitor liquidity risk, ensure that an appropriate amount of liquid assets is
maintained, measure and project funding requirements during various scenarios, and manage
access to funding sources.

By the 2007 examination, Columbian demonstrated an increasing reliance on brokered deposits
to fund asset growth and a significant decline in asset quality—two early-warning indicators that
should have prompted Columbian of the need for a comprehensive CLP. In addition, DSC
personnel noted that bank management had been expecting for some time that one of the bank’s
largest depositors (who controlled 12 percent of the bank’s deposits as of the 2008 examination)
had been planning to withdraw deposits from Columbian as a result of the depositor’s 2006
merger with a foreign company. Bank management developed a CLP in response to a
recommendation in the 2008 examination and subsequently updated the CLP in conjunction with
the July 2008 C&D. However, the CLP was not adequate to prepare Columbian for the eventual
loss of these deposits and other sources of funding.


Brokered Deposit Restrictions. The 2006, 2007, and 2008 ROEs noted that Columbian
management relied on brokered deposits as a primary source of liquidity to fund the rapid,
aggressive growth of high-risk CRE/ADC loans. The 2007 ROE noted that bank management
preferred utilizing brokered deposits “due to the lower cost of funds when compared to offering
higher deposit rates in the competitive, local market and because of the ability to match deposit
amounts and maturities to specific loan needs.”

The FDIC’s Rules and Regulations, section 337.6, Brokered Deposits, restricts access to
brokered deposits for banks that are adequately capitalized, stating that the insured depository
institution may not accept, renew, or roll over any brokered deposit unless the bank has applied
for and been granted a waiver of this prohibition by the FDIC. Therefore, Columbian’s access to
brokered deposits was restricted once the FDIC notified the bank of a decline in its capital
category as required by the PCA-related provisions in the FDIC’s Rules and Regulations




                                                  22
      Part 325. 10 This notice effectively occurred on April 30, 2008, the date the 2008 ROE, which
      classified the bank as adequately capitalized, was mailed to the bank.

      The last brokered deposit acquired or renewed by the bank was dated April 24, 2008, which was
      prior to the effective notice date for PCA purposes. On July 30, 2008, Columbian submitted a
      waiver application to the FDIC to acquire up to $88.4 million of additional brokered deposits.
      DSC personnel reviewed the application request and determined that it failed to include most
      items required by FDIC Rules and Regulations Section 303.243(c), Brokered Deposit Waivers.
      DSC notified the bank of the deficiencies on August 7, 2008. The bank provided an amended
      waiver application on August 20, 2008; however, no further action was taken by the FDIC as the
      bank was closed 2 days later.


Regulatory Supervision Related to Liquidity

      Although Columbian exhibited early warning signs of the need for a comprehensive CLP,
      examiners did not criticize the bank for not having a formal written CLP until the January 2008
      examination. As noted previously, contract provisions could restrict or deny access to funds if
      the financial condition of the bank deteriorated. In particular, the 2008 ROE documented bank
      management’s concern that financial-related restrictions might negate the bank’s ability to retain
      their top five core-deposit relationships, which comprised 14.5 percent of total deposits and
      about 32 percent of core deposits (as noted earlier, one of these depositors represented 12 percent
      of total deposits). The bank’s reliance on several customers that controlled a large volume of
      deposits had been noted as early as the 2003 ROE.

      As part of the July 2008 C&D, the FDIC required that the bank begin preparing, reviewing, and
      updating, on a daily basis, a written liquidity analysis and projection for the sources and uses of
      funds, to include “specific contingency plans in the event that anticipated events do not
      materialize, or in case of some other liquidity emergency.”

      On July 21, 2008, Columbian sent DSC the bank’s first liquidity progress report pursuant to the
      C&D. However, subsequent action by Columbian evidenced a continued inability to effectively
      plan for the bank’s liquidity needs. In particular, the bank repaid $37 million of FHLB
      advances on August 13, 2008 to reduce borrowing costs, with the presumption that these funds
      would be available to the bank in the future, if needed. On August 15, 2008, when the bank
      requested to draw $15 million in FHLB advances, the FHLB informed the bank that the line of
      credit had been temporarily frozen, restricting the bank’s access to these funds and thereby
      cutting off a significant source of liquidity for the bank.

      Subsequent to Columbian’s failure, DSC issued additional guidance related to liquidity risk and
      CLPs. The FDIC’s Liquidity Risk Management guidance, dated August 26, 2008, urged
      financial institutions to establish a formal CLP that establishes quantitative liquidity risk

      10
        FDIC Rules and Regulations Part 325, Subpart B, Prompt Corrective Action, section 325.10, Notice of Capital
      Category, (a) & (b), notes that a bank shall be deemed to be within a given capital category for purposes of section
      38 of the FDI Act as of the date the bank is notified of, or is deemed to have notice of, its capital category. This date
      can include the date a final ROE is delivered to the bank.


                                                                   23
    guidelines. The guidance also states that CLPs should identify the institution’s liquidity risk
    profile and the types of stress events that may be faced including, but not limited to, a
    deterioration in asset quality, a capital position of less than well capitalized, the need to fund
    unplanned asset growth, loss of access to market funding sources, and the impact of negative
    press coverage. The guidance also reiterates several of the elements that Columbian’s CLP did
    not include, as discussed earlier.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least possible
    long-term cost to the DIF. PCA establishes a system of restrictions and mandatory supervisory
    actions that are to be triggered by an institution’s capital levels. Part 325 of the FDIC’s Rules
    and Regulations implements PCA requirements by establishing a framework for taking prompt
    corrective action against insured nonmember banks that are not adequately capitalized.

    The FDIC evaluated Columbian’s capital position and assigned capital component ratings;
    however, the bank was not categorized as undercapitalized prior to its failure; therefore, the
    FDIC did not issue a PCA Directive to Columbian. Columbian’s May 2006 examination rated
    capital a 1 and concluded that Columbian’s capital was strong for the level of risk identified.
    The July 2007 examination downgraded capital to a 2, although the bank remained in a well-
    capitalized position. However, due to Columbian’s significant asset growth, problematic loan
    portfolio, and large dividend payments, the capital rating was downgraded in the January 2008
    examination and June 2008 visitation to 4 and 5, respectively.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s financial
    health. In addition, the use of PCA Directives depends on the accuracy of capital ratios in a
    financial institution’s Call Reports. Columbian’s capital remained in the well capitalized to
    adequately capitalized range long after its operations had begun to deteriorate because of
    problems related to management, asset quality, risk management controls, and net losses. In
    particular, examiners considered the ALLL to be underfunded in May 2006 and January 2008,
    which overstated capital and earnings and underreported the deterioration of the loan portfolio.
    At those two examinations, the examiners recommended that the ALLL be increased by
    $900,000 and $8,117,000, respectively.

    The last Call Report for the bank as of June 30, 2008, reported the following ratios:

       •   Tier 1 Leverage Capital        6.00 percent
       •   Tier 1 Risk Based Capital      6.27 percent
       •   Total Risk Based Capital       8.98 percent

    All these ratios exceeded the regulatory minimums for a PCA categorization of adequately
    capitalized. As a result, the FDIC did not implement the PCA provisions for undercapitalized
    institutions prior to Columbian’s failure in August 2008.




                                                      24
CORPORATION COMMENTS

    On March 5, 2009, the Director, DSC, provided a written response to the draft report. DSC’s
    response is provided in its entirety as Appendix 3 of this report. In its response, DSC agreed
    with the OIG’s conclusions regarding the causes of Columbian’s failure and the resulting
    material loss to the DIF and DSC’s supervisory activities related to Columbian. DSC also agreed
    that increased supervisory action, commensurate with the risks posed to the institution, should
    have been implemented sooner.

    DSC also stated that it has undertaken a number of initiatives related to the supervision of
    financial institutions that have high-risk lending activities, including concentrations in CRE
    and/or the use of interest reserves.




                                                      25
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from September 2008 to February 2009 in accordance with
      generally accepted government auditing standards. However, due to the limited scope
      and objectives established for material loss reviews, which are generally applied to just
      one financial institution, it may not have been feasible to address certain aspects of the
      standards, as discussed further below.


Scope and Methodology

      The scope of this audit included an analysis of Columbian’s operations from January 1,
      2003 until its failure on August 22, 2008. Our review also entailed an evaluation of the
      regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and OSBC
                 examiners from 2003 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Kansas City Regional
                       Office and Field Office.

                   •   Reports prepared by DRR and DSC relating to the bank’s closure.

                   •   Columbian audit workpapers at the offices of Mayer Hoffman McCann, P.C.,
                       in Leawood, Kansas.
                   .




                                                      26
                                                                                      APPENDIX 1


                 •   Bank records maintained by DRR in Dallas for information that would
                     provide insight into the bank’s failure, various annual reports, and
                     accompanying financial statements.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in FDIC’s Kansas City Regional Office.

                 •   DRR and contractor personnel at the Columbian Receivership Office
                     Overland Park, Kansas.

                 •   DRR officials at the Dallas Regional Office.

                 •   FDIC examiners from the KCFO who participated in examinations or
                     reviews of examinations of Columbian.

           •   Met with officials from the OSBC, Topeka, Kansas, to discuss the historical
               perspective of the institution, its examinations, and other activities regarding the
               state’s supervision of the bank.

           •   Researched various federal banking laws and regulations.

      We performed the audit field work at the FDIC’s headquarters in Washington, D.C., and
      DSC Regional and Field Offices located in Kansas City, Missouri.

      Our ability to evaluate the adequacy of DSC’s supervisory efforts was restricted by the
      lack of FDIC examination work papers for the 2006 FDIC examination. We were
      informed that the 2006 examination work papers had been destroyed prior to the
      commencement of our review. Regional Directors Memorandum 01-039, Guidelines for
      Examination Workpapers and Discretionary Use of Examination Documentation
      Modules, dated September 25, 2001, and the Examination Manual notes that, with some
      exceptions, the retention of work papers beyond one examination is generally
      discouraged. In addition, only a limited number of 2007 examination work papers were
      available for our review.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Columbian’s
      management controls pertaining to its operations as discussed in the finding section of
      this report.




                                                      27
                                                                            APPENDIX 1


For purposes of the audit, we did not rely on computer-processed data to support our
significant findings and conclusions. Our review centered on interviews, ROEs, and
correspondence and other evidence to support our audit.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, manage and measure results to
justify appropriations and authorizations, and design budgets that reflect strategic
missions. For this material loss review, we did not assess the strengths and weaknesses
of DSC’s annual performance plan in meeting the requirements of the Results Act
because such an assessment is not part of the audit objectives. DSC’s compliance with
the Results Act is reviewed in program audits of DSC’s operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and certain aspects of the FDI
Act. Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.




                                              28
                                                                                           APPENDIX 2
                                   GLOSSARY OF TERMS


        Term                                                  Definition
Adversely            Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets    classified assets are allocated on the basis of risk (lowest to highest) to three categories:
                     •    Substandard,
                     •    Doubtful, and
                     •    Loss.

Allowance for Loan   Federally insured depository institutions must maintain an ALLL level that is adequate
and Lease Losses     to absorb the estimated credit losses associated with the loan and lease portfolio
(ALLL)               (including all binding commitments to lend). To the extent not provided for in a
                     separate liability account, the ALLL should also be sufficient to absorb estimated credit
                     losses associated with off-balance sheet credit instruments such as standby letters of
                     credit.

Cease and Desist     A formal enforcement action issued by financial institution regulators to a bank or
Order (C&D)          affiliated party to stop an unsafe or unsound practice or violation. A C&D may be
                     terminated when the bank’s condition has significantly improved and the action is no
                     longer needed or the bank has materially complied with its terms.

Concentration        A concentration is a significantly large volume of economically related assets that an
                     institution has advanced or committed to one person, entity, or affiliated group. These
                     assets may in the aggregate present a substantial risk to the safety and soundness of the
                     institution. A concentrations schedule is one of the pages that may be included in the
                     ROE. As a general rule, concentrations are listed by category according to their
                     aggregate total and are reflected as a percentage of Tier 1 Capital.

Prompt Corrective    The purpose of PCA is to resolve problems of insured institutions in order to prevent a
Action (PCA)         failure or minimize resulting losses. Part 325 of the FDIC Rules and Regulations, 12
                     Code of Federal Regulations, section 325.101, et. seq., implements section 38, Prompt
                     Corrective Action, of the FDI Act, 12 United States Code section 1831(o), establishing
                     a framework of supervisory actions against insured nonmember banks that are not
                     adequately capitalized. The capital categories are:
                        Well Capitalized
                        Adequately Capitalized
                        Undercapitalized
                        Significantly Undercapitalized
                        Critically Undercapitalized

Uniform Bank         The UBPR is an individual analysis of financial institution financial data and ratios that
Performance          includes extensive comparisons to peer group performance. The report is produced by
Report               the Federal Financial Institutions Examination Council for the use of banking
                     supervisors, bankers, and the general public and is produced quarterly from Call Report
                     data submitted by banks.




                                                     29
                       APPENDIX 3

CORPORATION COMMENTS




         30
     APPENDIX 3




31
     APPENDIX 3




32
                                                                      APPENDIX 4
                       ACRONYMS IN THE REPORT


Acronym                                   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
          to Market Risk
CD        Certificate of Deposit
C&D       Cease & Desist Order
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
GAAP      Generally Accepted Accounting Principles
KCFO      Kansas City Field Office
MLR       Material Loss Review
OIG       Office of Inspector General
OSBC      Office of the State Bank Commissioner
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                        33
